No. 20-5617

In the Supreme Court of the United States
DAVID ALLEN RUNDLE, Petitioner,
v.
RON DAVIS, WARDEN, Respondent.

CERTIFICATE OF SERVICE BY MAIL

I, David Andrew Eldridge, Deputy Attorney General, a member of the Bar of
this Court hereby certify that on October 20, 2020, a copy of the BRIEF IN
OPPOSITION in the above-entitled case was mailed, first class postage prepaid to (in
addition to electronic service by e-mail to):
Marcia A. Morrissey
11400 W. Olympic Blvd., Suite 1500
Los Angeles, CA 90064
Email: morrisseyma@aol.com
(Attorney for Petitioner)
I further certify that all parties required to be served have been served.
s\ David Andrew Eldridge
DAVID ANDREW ELDRIDGE
Deputy Attorney General
Office of the Attorney General
1300 I Street, Suite 125
P.O. Box 944255
Sacramento, CA 94244-2550
Telephone: (916) 210-7753
Counsel for Respondent

